No. 19-982
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ERICA Y. BRYANT, ET AL., PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 10th day of April 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,119 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
April 10, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 10, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0982
BRYANT, ERICA Y., ET AL.
USA

JOSEPH L. ANDERSON
THE PANGIA LAW GROUP
1717 N STREET, NW
WASHINGTON, DC 20036
202-955-6450
J. EDWARD BELL, II
BELL LEGAL GROUP
219 RIDGE STREET
GEORGETOWN, SC 29440
843-546-2408
JAY T. BREAKSTONE
PARKER WAICHMAN LLP
SIX HARBOR PARK DRIVE
PORT WASHINGTON, NY 11050
516-466-6500
JBREAKSTONE@YOURLAWYER.COM
ROBERT B. JACKSON, IV
260 PEACHTREE STREET, NW
SUITE 2200
ATLANTA, GA 30303
404-313-2039
DONALD D.J. STACK
260 PEACHTREE STREET, NW
SUITE 1200
ATLANTA, GA 30303
404-692-7504

ALTON C. TODD
THE LAW FIRM OF ALTON C. TODD
312 SOUTH FRIENDSWOOD DRIVE
FRIENDSWOOD, TX 77546
281-992-8633

